Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




     COLORADO DID NOT
    PROPERLY PAY SOME
      MEDICARE PART B
DEDUCTIBLES AND COINSURANCE


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                Gloria L. Jarmon
                                             Deputy Inspector General

                                                   December 2013
                                                   A-07-13-03189
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

  Colorado claimed approximately $1.7 million of unallowable Medicaid payments for
  Medicare Part B deductibles and coinsurance for services during Federal fiscal years 2011
  and 2012.


WHY WE DID THIS REVIEW

Medicaid pays for Medicare deductibles and coinsurance to providers on behalf of some
individuals who are entitled to both Medicare and Medicaid benefits. In Colorado, the
Department of Health Care Policy and Financing (State agency) administers the Medicaid
program. Previous Office of Inspector General reviews found that other States did not always
claim Medicaid payments for Medicare deductibles and coinsurance (crossover claims) in
accordance with Federal requirements and the approved State plan.

The objective of this review was to determine whether the State agency claimed Medicaid payments
for Medicare Part B deductibles and coinsurance in accordance with Federal requirements and the
approved State plan.

BACKGROUND

In Colorado, the State agency is responsible for processing crossover claims. Those
responsibilities include establishing systems and internal controls, which include policies and
procedures to accurately pay Medicare Part B deductibles and coinsurance in accordance with
the State plan.

To execute the provisions of the State plan for Medicare Part B services, the State agency should
compare the Medicare payment to the State Medicaid plan rate for each crossover claim to
determine the allowable payment of Medicare Part B deductibles and coinsurance. Based on this
comparison, the allowable payment is the lower of (1) the Medicaid-allowed charge minus the
Medicare payment or (2) the sum of the Medicare deductible and coinsurance.

The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$9.0 billion (approximately $4.8 billion Federal share) during Federal fiscal years (FYs) 2011
and 2012 (October 1, 2010, through September 30, 2012). As part of these Medicaid payments,
the State agency claimed approximately $64.3 million (approximately $34.3 million Federal
share) for payments for Medicare Part B deductibles and coinsurance.

WHAT WE FOUND

During FYs 2011 and 2012, the State agency did not always claim Medicaid payments for
Medicare Part B deductibles and coinsurance in accordance with Federal requirements and the
approved State plan. Specifically, for 30 of the 100 claims in our sample, the State agency did
not limit payment of Medicare Part B deductibles and coinsurance by State Medicaid plan rates
as required under the State plan. Because Federal requirements provide that a State plan for


Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)        i
medical assistance is mandatory upon the State and all of its political subdivisions, these 30
claims thus violated Federal requirements as well as the requirements of the State plan.

These errors occurred because the State agency did not compare the Medicare payment to the
State Medicaid plan rate as required by the State plan. The State agency did not make this
comparison because it did not have policies and procedures requiring it to do so for all Medicare
Part B crossover claims. On the basis of our sample results, we estimate that the State agency
claimed unallowable Medicaid payments of at least $3,139,895 ($1,670,386 Federal share)
during FYs 2011 and 2012.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $1,670,386 to the Federal Government for unallowable Medicaid payments for
        Medicare Part B deductibles and coinsurance and

    •   develop and implement policies and procedures to ensure that it compares the Medicare
        payment to the State Medicaid plan rate, as required by the State plan, to determine the
        allowable Medicare Part B deductibles and coinsurance for all crossover claims.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency did not concur with our
recommendations. The State agency said that our audit findings and recommendations were
based on a minor technical variation in routine claim processing, contradicted the policy
guidance provided by the State plan and CMS guidelines, and were based on a hypothetical
repricing exercise.

Nothing in the State agency’s comments caused us to change our findings or recommendations.
We asked State agency staff to reprice claims because that was a necessary step in allowing us to
determine the State Medicaid plan rate.




Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)         ii
                                                        TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objective ......................................................................................................................... 1

           Background ..................................................................................................................... 1
               Medicaid Program ................................................................................................... 1
               Medicare Program ................................................................................................... 1
               Medicaid’s Role in Paying Medicare Part B Deductibles and Coinsurance
                 for Dual Eligibles ................................................................................................ 2
               Colorado Medicaid Program.................................................................................... 2

           How We Conducted This Review................................................................................... 3

FINDINGS .................................................................................................................................. 3

           State Agency Claimed Unallowable Medicaid Payments .............................................. 3

           State Agency Did Not Have Adequate Policies and Procedures .................................... 4

RECOMMENDATIONS ............................................................................................................ 4

STATE AGENCY COMMENTS ............................................................................................... 5

OFFICE OF INSPECTOR GENERAL RESPONSE ................................................................. 5

APPENDIXES

           A: Related Office of Inspector General Reports ............................................................ 7

           B: Dual Eligible Groups and Details of Medicaid’s Role in
                Paying Medicare Part B Deductibles and Coinsurance ........................................ 8

           C: Audit Scope and Methodology.................................................................................. 9

           D: Statistical Sampling Methodology .......................................................................... 11

           E: Sample Results and Estimates ................................................................................. 13

           F: Federal and State Requirements Related to Medicaid
                Payments for Medicare Part B Deductibles and Coinsurance ............................ 14

           G: State Agency Comments ......................................................................................... 15

Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)                                                         iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Medicaid pays for Medicare deductibles and coinsurance to providers on behalf of some
individuals who are entitled to both Medicare and Medicaid benefits (dual eligibles). In
Colorado, the Department of Health Care Policy and Financing (State agency) administers the
Medicaid program. Previous Office of Inspector General reviews (Appendix A) found that other
States did not always claim Medicaid payments for Medicare deductibles and coinsurance
(crossover claims) in accordance with Federal requirements and the approved State plan.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid payments for Medicare
Part B deductibles and coinsurance in accordance with Federal requirements and the approved State
plan.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), reports actual Medicaid expenditures for each quarter and
is used by CMS to reimburse States for the Federal share of Medicaid expenditures. The
reported amounts must be actual expenditures with supporting documentation. The amount that
the Federal Government reimburses to State Medicaid agencies, known as Federal financial
participation (FFP) or Federal share, is determined by the Federal medical assistance percentage
(FMAP), which varies based on a State’s relative per capita income. Although FMAPs are
adjusted annually for economic changes in the States, Congress may increase or decrease
FMAPs at any time. During Federal fiscal years (FYs) 2011 and 2012 (October 1, 2010, through
September 30, 2012), Colorado’s FMAP ranged from 50.00 percent to 61.59 percent. 1

Medicare Program

The Medicare program provides health insurance for people aged 65 and over, people with
disabilities, and people with permanent kidney disease. CMS, which administers the program,
contracts with Medicare contractors to process and pay Medicare Part B claims submitted by

1
 Under the provisions of the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, as amended by
P.L. No. 111-226, States’ FMAPs were temporarily increased for the period October 1, 2008, through June 30, 2011.

Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)                     1
providers. Medicare Part B helps cover medically necessary doctors’ services and tests,
outpatient care, home health services, and durable medical equipment.

Medicaid’s Role in Paying Medicare Part B Deductibles and Coinsurance
for Dual Eligibles

“Dual eligibles” are individuals who are entitled to both Medicare and some form of Medicaid
benefits. A dual eligible may be classified into one of several groups. Several of these groups
are qualified to have their Medicare Part B deductibles and coinsurance paid for by the Medicaid
program.

After the Medicare contractor pays a Medicare Part B claim for a dual eligible and assesses the
Medicare Part B deductibles and coinsurance, the contractor forwards the crossover claim
information to the appropriate State’s Medicaid program. The State Medicaid program
determines, on the basis of the requirements established in its State plan, whether to pay part or
all of the Medicare Part B deductibles and coinsurance and then pays the provider through the
usual Medicaid payment system. 2 In all cases, the amount paid by the State, if any, is payment
in full for Medicare Part B deductibles and coinsurance.

Appendix B contains an explanation of the dual eligible groups and details of Medicaid’s role in
paying Medicare Part B deductibles and coinsurance.

Colorado Medicaid Program

In Colorado, the State agency is responsible for processing crossover claims. Those
responsibilities include establishing systems and internal controls, which include policies and
procedures to accurately pay Medicare Part B deductibles and coinsurance in accordance with
the State plan.

The Colorado State plan requires coordination of Medicaid with Medicare and provides methods
and standards for the payment of crossover claims. The State plan limits the payment of
Medicare Part B deductibles and coinsurance to four specified groups of dual eligible
beneficiaries. Payment is limited by the State plan rate for all Medicare Part B services.

To execute the provisions of the State plan for Medicare Part B services, the State agency should
compare the Medicare payment to the State Medicaid plan rate for each crossover claim to
determine the allowable payment of Medicare Part B deductibles and coinsurance. Based on this
comparison, the allowable payment is the lower of (1) the Medicaid-allowed charge minus the
Medicare payment or (2) the sum of the Medicare deductible and coinsurance.

The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$9.0 billion (approximately $4.8 billion Federal share) during FYs 2011 and 2012. As part of these
Medicaid payments, the State agency claimed approximately $64.3 million (approximately
$34.3 million Federal share) for payments for Medicare Part B deductibles and coinsurance.

2
  The State agency uses the Medicaid Management Information System (MMIS), a computerized payment and
information reporting system, to process and pay Medicaid claims.

Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)              2
HOW WE CONDUCTED THIS REVIEW

We reviewed claimed Medicaid payments for Medicare Part B deductibles and coinsurance
totaling $64,293,032 ($34,278,043 Federal share) for which the State agency claimed Federal
reimbursement during FYs 2011 and 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix C contains details of our audit scope and methodology, Appendix D contains details of
our sample design and methodology, and Appendix E contains our sample results and estimates.

                                              FINDINGS

During FYs 2011 and 2012, the State agency did not always claim Medicaid payments for
Medicare Part B deductibles and coinsurance in accordance with Federal requirements and the
approved State plan. Specifically, for 30 of the 100 claims in our sample, the State agency did
not limit payment of Medicare Part B deductibles and coinsurance by State Medicaid plan rates
as required under the State plan. Because Federal requirements provide that a State plan for
medical assistance is mandatory upon the State and all of its political subdivisions, these 30
claims thus violated Federal requirements as well as the requirements of the State plan.

These errors occurred because the State agency did not compare the Medicare payment to the
State Medicaid plan rate as required by the State plan. The State agency did not make this
comparison because it did not have policies and procedures requiring it to do so for all Medicare
Part B crossover claims. On the basis of our sample results, we estimate that the State agency
claimed unallowable Medicaid payments of at least $3,139,895 ($1,670,386 Federal share)
during FYs 2011 and 2012.

STATE AGENCY CLAIMED UNALLOWABLE MEDICAID PAYMENTS

The State agency must comply with certain Federal requirements (the Social Security Act (the
Act), § 1902(a)(1)) and implementing regulations (42 CFR § 431.50(b)(1)), which provide that a
State plan for medical assistance is mandatory upon the State and all of its political subdivisions.

The Colorado State plan, section 3.2(b), requires coordination of Medicaid with Medicare and
provides methods and standards for payment of Medicare Part B deductibles and coinsurance. In
addition, the State plan (Supplement 1 to Attachment 4.19-B) limits payment of Medicare Part B
deductibles and coinsurance on behalf of beneficiaries to the amount, if any, by which the State
Medicaid plan rate exceeds the Medicare payment.

Details on the Federal and State requirements related to Medicaid payments for Medicare Part B
deductibles and coinsurance appear in Appendix F.


Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)         3
Contrary to these Federal and State requirements, the State agency did not limit payment of
Medicare Part B deductible and coinsurance claims for 30 of the 100 sampled claims. For those
100 claims, the State agency paid $4,802 but should have paid $2,831, a difference of $1,971
($1,047 Federal share).

STATE AGENCY DID NOT HAVE ADEQUATE POLICIES AND PROCEDURES

The State agency did not compare the Medicare payments to the State Medicaid plan rate to
determine the allowable Medicare Part B deductibles and coinsurance for all crossover claims.
The table below presents three examples, using actual values drawn from the claims we sampled,
for the calculation of allowable Medicare Part B deductibles and coinsurance.

                                       Sample Crossover Claims
                       Medicare                                       Medicaid
                                                                         Allowable           Unallowable
                                                                        Payment for          Payment for
                              Medicare                                   Medicare             Medicare
                               Part B                                      Part B              Part B
                             Deductibles          State                 Deductibles          Deductibles
                                 and            Medicaid                    and                  and
 Claim        Payment        Coinsurance        Plan Rate      Payment Coinsurance           Coinsurance
   A              $204               $51                $0         $51            $0                 $51
   B               478               120              530          120            52                  68
   C                51                13                77          13            13                   0

Notes: Claim A: State Medicaid plan rate is lower than Medicare payment.
       Claim B: State Medicaid plan rate is higher than Medicare payment.
       Claim C: State Medicaid plan rate is higher than Medicare payment.

These discrepancies occurred because the State agency did not have policies and procedures
requiring it to compare the Medicare payment to the State Medicaid plan rate for all Medicare
Part B crossover claims. On the basis of our sample results, we estimate that the State agency
claimed unallowable Medicaid payments of at least $3,139,895 ($1,670,386 Federal share)
during FYs 2011 and 2012.

                                        RECOMMENDATIONS

We recommend that the State agency:

    •   refund $1,670,386 to the Federal Government for unallowable Medicaid payments for
        Medicare Part B deductibles and coinsurance and

    •   develop and implement policies and procedures to ensure that it compares the Medicare
        payment to the State Medicaid plan rate, as required by the State plan, to determine the
        allowable Medicare Part B deductibles and coinsurance for all crossover claims.



Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)             4
                                 STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our
recommendations. The State agency said that our audit findings and recommendations were
based on a minor technical variation in routine claim processing, contradicted the policy
guidance provided by the State plan and CMS guidelines, and were based on a hypothetical
repricing exercise.

The State agency said that the claims that were identified in this audit were processed and paid
correctly according to the payment rules programmed in the MMIS. According to the State
agency, the State plan specifies the use of a “lower of” pricing logic to compare a Medicaid price
to the Medicare payment. The State agency said that it had been consistent in both the
interpretation and the intent of this “lower of” pricing rule, “applying the same pricing logic to
all Medicare crossover claims.” The State agency added that it is not required to identify,
through the State plan, “every nuance or instance” in which the MMIS cannot fully price a
Medicare crossover claim because of the differences in reimbursement methodologies between
Medicare and Medicaid.

The State agency also stated that the State plan covers basic requirements and the individualized
content that reflects the characteristics of the State agency’s reimbursement process. Moreover,
according to the State agency, a technical addition to the State plan to clarify circumstances
under which the Medicare coinsurance plus deductible amount is paid when the “lower of”
pricing logic is not specified would constitute a “minor technical clarification” and would not
reach the threshold to justify our recommendations. In addition, the State agency said that our
recommendations are contrary to the goals of the program as described in the administrative
guidelines from CMS.

Lastly, the State agency said that it did not believe that we procured proper and sufficient
evidence during the audit to provide a reasonable basis for the recommendations. The State
agency said that we based our recommendations on the results of a “hypothetical re-pricing
exercise that assumed the claims were not crossover claims, but instead Medicaid-only claims”
(emphasis in original).

The State agency’s comments are included in their entirety as Appendix G.

                      OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to change our findings, our recommendations,
or our calculations of the unallowable Medicaid payments.

Section 1902 of the Act provides that a State submit a plan that meets all Federal requirements in
order to establish a Medicaid program. As specified in section 1903(a)(1) of the Act and 42 CFR
§ 430.10, only those Medicaid expenditures made by a State in accordance with the State plan
are eligible for Federal reimbursement. The State plan must contain all information necessary
for CMS to determine whether the plan can be approved to serve as the basis for the receipt of
FFP, and the plan must be amended to reflect any material change in State policy or operation of


Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)          5
the State’s Medicaid program (42 CFR §§ 430.10 and 430.12(c)). State claim processing and
payment systems, such as the MMIS, must process and pay claims in accordance with the
approved State plan.

The Colorado State plan (Supplement 1 to Attachment 4.19-B) in effect during our audit period
limits payment of Medicare Part B deductibles and coinsurance to the lower of (1) the State
Medicaid-allowed charge minus the Medicare payment or (2) the sum of the Medicare deductible
and coinsurance. The State plan contains no exceptions to this rule, a fact that the State agency
acknowledged in its comments. Although the State agency said that it had consistently paid
crossover claims in accordance with the rules programmed in its MMIS, those rules are
inconsistent with the Colorado State plan. We also note that the Colorado Office of the State
Auditor, in the Statewide Single Audits for the State fiscal years ended June 30, 2009, June 30,
2010, and June 30, 2011, found that the State plan did not identify exclusions from the “lower
of” pricing methodology. The State agency responded to all three of these Statewide Single
Audits by saying that it would either (1) discontinue the exclusions and start paying all claims
using the “lower of” pricing logic or (2) modify its State plan. To date, neither of those actions
has been executed.

Regarding the State agency’s comments on our audit methodology, we asked State agency staff
to reprice claims as Medicaid-only not as a hypothetical exercise, but rather to allow us to
determine the State Medicaid plan rate—a necessary step that was central to our ability to audit
this program. That is, it was necessary to determine the State Medicaid plan rate so that we
could compare the Medicare payment to the State Medicaid plan rate, as required by the State
plan, to thereby determine the allowable Medicare Part B deductibles and coinsurance for each
crossover claim.




Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)         6
        APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                            Report Title                                 Report Number       Date Issued
Review of Nebraska’s Medicaid Payments for Dual Eligible                A-07-11-03161         2/6/2012
Individuals’ Medicare Part A Deductibles and Coinsurance
Nebraska Did Not Properly Pay Some Medicare Part B                      A-07-11-03168        2/29/2012
Deductibles and Coinsurance
Montana Did Not Properly Pay Medicare Part B Deductibles                A-07-11-03172        6/18/2012
and Coinsurance for Outpatient Services
Iowa Did Not Properly Pay Some Medicare Part A and Part B               A-07-12-03178        11/20/2012
Deductibles and Coinsurance




Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)                 7
APPENDIX B: DUAL ELIGIBLE GROUPS AND DETAILS OF MEDICAID’S ROLE IN
      PAYING MEDICARE PART B DEDUCTIBLES AND COINSURANCE

Dual eligibles may be classified into several groups, including but not limited to Qualified
Medicare Beneficiary (QMB) without full Medicaid (QMB Only), QMB with full Medicaid
(QMB Plus), Specified Low-Income Beneficiary with full Medicaid (SLMB Plus), and Full
Benefit Dual Eligible (FBDE). These eligibility groups are qualified to have their Medicare
Part B deductibles and coinsurance paid for by the Medicaid program. 3

After the Medicare contractor pays a Medicare Part B claim for a dual eligible and assesses the
Medicare Part B deductibles and coinsurance, the contractor forwards the crossover claim
information to the appropriate State’s Medicaid program. The State Medicaid program then
determines, on the basis of the requirements established in its State plan, whether to pay part or
all of the Medicare Part B deductibles and coinsurance and then pays the provider through the
MMIS.

For beneficiaries classified in the QMB Only and QMB Plus eligibility groups, States are
mandated to pay Medicare Part B deductibles and coinsurance. Federal statute permits Medicare
payment for a service, plus the Medicaid payment for any Medicare Part B deductibles and
coinsurance, to exceed the State plan rate for the service (the Act, § 1902(n)(2)). This statute
adds, however, that a State is not required to pay for Medicare Part B deductibles and
coinsurance on behalf of QMB Only and QMB Plus beneficiaries to the extent that the Medicare
payment for the service exceeds what the State Medicaid program would have paid on behalf of
a Medicaid-only recipient. If a State caps its Medicare Part B deductible and coinsurance
coverage, and the Medicare payment for a service is equal to or exceeds the State Medicaid plan
rate, the State makes no payment for Medicare Part B deductibles and coinsurance. If, on the
other hand, the Medicare payment is less than the State Medicaid plan rate for a service, the State
pays the Medicare Part B deductibles and coinsurance up to the difference between the amount
paid by Medicare and the State Medicaid plan rate.

For beneficiaries classified in the SLMB Plus and FBDE eligibility groups, States are not
mandated to pay Medicare Part B deductibles and coinsurance. However, because SLMB Plus
and FBDE beneficiaries are entitled to full Medicaid benefits, they may be entitled to have
Medicare Part B deductibles and coinsurance paid on their behalf when a service is covered by
both Medicare and Medicaid. For Medicaid-covered services, the State agency will pay the
difference between the State Medicaid plan rate and the Medicare payment.

The Colorado State plan requires coordination of Medicaid with Medicare and provides methods
and standards for the payment of crossover claims. The State plan limits the payment of
Medicare Part B deductibles and coinsurance for QMB Only, QMB Plus, SLMB Plus, and FBDE
beneficiaries by the State Medicaid plan rate for all Medicare Part B services.


3
 There are other groups of dual eligible beneficiaries who are not qualified to have their Medicare Part B
deductibles and coinsurance paid for by the Medicaid program: SLMB without full Medicaid, Qualified Disabled
and Working Individual, and Qualifying Individual.


Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)                     8
                   APPENDIX C: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed Medicaid payments totaling $64,293,032 ($34,278,043 Federal share) for services
whose payments were limited by the State Medicaid plan rate that the State agency made and
claimed for Federal reimbursement for Medicare Part B deductibles and coinsurance for
FYs 2011 and 2012. We did not review the overall internal control structure of the State agency
or the Medicaid program. Rather, we reviewed only the internal controls that pertained directly
to our objective.

We performed fieldwork at the State agency in Denver, Colorado, in March 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements and the State Medicaid plan;

    •   interviewed State agency officials to gain an understanding of their policies and
        procedures for claiming Medicare Part B deductibles and coinsurance;

    •   requested and received from the State agency crossover claim data for paid Medicare
        Part B deductibles and coinsurance;

    •   analyzed the crossover claim data and developed a database of payments to providers for
        Medicare Part B deductibles and coinsurance for services whose payments are limited by
        the State Medicaid plan rate;

    •   selected and reviewed a simple random sample of 100 crossover claims from our
        sampling frame of 588,804 crossover claims (Appendixes D and E) and, for each
        sampled crossover claim:

            o reviewed Medicare’s payment and Medicare Part B deductible and coinsurance
              amounts,

            o reviewed the State Medicaid plan rate,

            o compared Medicare’s payment to the State Medicaid plan rate to determine the
              allowable and unallowable (if any) Medicaid payment of Medicare Part B
              deductible and coinsurance amounts, and

            o verified that the beneficiary in question was in one of the four eligibility groups
              (QMB Only, QMB Plus, SLMB Plus, or FBDE) of dual eligibles;




Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)          9
    •   estimated the unallowable Medicaid payments at the lower limit of the 90-percent
        confidence interval (Appendix E); and

    •   discussed the results of our review with State agency officials on July 11, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)    10
               APPENDIX D: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population was obtained from the State agency’s MMIS and consisted of Medicare Part B
crossover claims totaling $64,293,032 paid by the State agency on behalf of dual eligibles for
FYs 2011 and 2012.

SAMPLING FRAME

The initial database received from the State agency consisted of eight text files, one file for each
quarter in our audit period. This database contained 1,766,334 Medicare Part B crossover
claims.

We reviewed the file and eliminated:

    •   65,132 claims that were adjusted and

    •   248,951 claims with reimbursements equal to or less than $2.

We also eliminated 863,447 claims on the basis of the results of a probe sample we conducted in
which we found no errors. The probe sample consisted of 40 claims representing all of the
different reimbursement type codes. If we found no errors with certain reimbursement type
codes, we eliminated all claims with those reimbursement type codes.

The resulting file constituted our sampling frame of 588,804 Medicare Part B crossover claims
totaling $33,844,394, from which we drew our random sample.

SAMPLE UNIT

A sampling unit was one paid Medicare Part B crossover claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units of paid Medicare Part B crossover claims.

SOURCE OF RANDOM NUMBERS

We generated random numbers with the Office of Inspector General, Office of Audit Services,
statistical software RAT-STATS.




Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)         11
ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the unallowable payments for deductible and coinsurance
costs. Because the FMAPs varied from year to year, we also estimated the total Federal
reimbursements to the State agency for unallowable deductible and coinsurance costs. We
calculated the FMAP amount for each sampled item by applying the applicable FMAP rate to the
total amount determined to be in error for the sample item. We used the lower limit of the
90-percent two-sided confidence interval to estimate the unallowable payment for deductible and
coinsurance costs.




Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)   12
                   APPENDIX E: SAMPLE RESULTS AND ESTIMATES

                                        SAMPLE RESULTS

                                                                                             Value of
                                                                                              Errors
                                                       Number of         Total Value         (Federal
 Frame Size       Frame Value        Sample Size        Errors            of Sample           Share)
  588,804         $33,844,394           100               30                $4,802            $1,047

  ESTIMATES OF UNALLOWABLE FEDERAL REIMBURSEMENT (Federal Share)
             (Limits Calculated for a 90-Percent Confidence Interval)

                                Point estimate         $6,166,427
                                Lower limit             1,670,386
                                Upper limit            10,662,467




Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)              13
    APPENDIX F: FEDERAL AND STATE REQUIREMENTS RELATED TO MEDICAID
      PAYMENTS FOR MEDICARE PART B DEDUCTIBLES AND COINSURANCE

FEDERAL REQUIREMENTS

The Act, section 1902(a), states: “A State plan for medical assistance must—(1) provide that it
shall be in effect in all political subdivisions of the State, and, if administered by them, be
mandatory upon them ….”

Federal regulations (42 CFR § 431.50(b)(1)) expand upon this provision of the Act by requiring
that the State plan “… will be in operation statewide through a system of local offices, under
equitable standards for assistance and administration that are mandatory throughout the State.”

The Act, section 1902(n)(1), states:

           In the case if medical assistance furnished under this title for [M]edicare cost-
           sharing respecting the furnishing of a service or item to a qualified [M]edicare
           beneficiary, the State plan may provide payment in an amount with respect to the
           service or item that results in the sum of such payment amount and any amount of
           payment made under title XVIII with respect to the service or item exceeding the
           amount that is otherwise payable under the State plan for the item or service for
           eligible individuals who are not qualified [M]edicare beneficiaries. 4

The Act, section 1902(n)(2), states: “In carrying out paragraph (1), a State is not required to
provide any payment for any expenses incurred relating to payment for deductibles, coinsurance,
or copayments for [M]edicare cost-sharing to the extent that payment under title XVIII for the
service would exceed the payment amount that otherwise would be made under the State plan
under this title for such service if provided to an eligible recipient other than a [M]edicare
beneficiary.”

STATE REQUIREMENTS

The Colorado State plan, section 3.2(b), requires coordination of Medicaid with Medicare and
provides methods and standards for payment of Medicare deductibles and coinsurance.

The Colorado State plan, Supplement 1 to Attachment 4.19-B, states:

           A. For QMBs, Other Medicaid Recipients [SLMB Plus and FBDE], and Dual
           Eligibles [QMB Plus], the reimbursement methodology for [Medicare] Part A and
           Part B services is as follows:

           Medicaid payment is calculated by comparing the Medicaid allowed charge minus
           the Medicare payment to the sum of the Medicare coinsurance and deductible.
           Medicaid pays the lower of the two values.


4
    Title XVIII of the Act promulgates the Medicare program.

Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A-07-13-03189)        14
                                          APPENDIX G: STATE AGENCY COMMENTS 





                                           COLORADO D EPARTMENT OF HEALTH CARE POLICY & FINANCING
                                           1570 Grant Street, Denver, CO 80203-1818 • (303) 866-2993 • (303) 866-4411 Fax
                                           John W. Hlckenlooper, Governor • Susan E. Birch MBA, BSN, RN, ExeOJtlve Director




       October 23,201 3


       Patrick J. Cogley, Regionallnspector General for Audit Services
       Office of the Inspecto r General
       Office of Audit Services, Regio n VI.l
       60 1 E. l2 1h St., Room 0429
       Kansas City, MO 641 06



       Dear Mr. Cogley:

       The Department of Health Care Policy and Financing (Department) submits this response to the U.S.
       Department of Health and Human Services, Office oflnspc<;to r General (OIG) report enti tl ed Colorado Did
       No t Properly Pay Some Medicare Part B Deductibles and Coinsurance (A-07-13-03189). The OIG report
       contains the following recommendatio ns :·..
            • 	 Refund $1 ,670,386 t~ the Fede~iil-' Gove~ent f~;· unallowable M~dicaid paytnents for Medicare Pari
                B deductibles and coin su rance, and

            •     Develop and impl~mcnt poli~ies· and procedure's . to . ;e~sure that it [the Department] compares the
                  Medicare payment to the State Medicaid plan · rate, as required by the State plan, to determi ne the
                  allowable Medicare Part B deductibles and coinsurance for all crossover claims.

       The Department does not concur with either of the recommendations. For the speci fic reasons discussed
       below, a corrective action plan is n:ot warranted. Because the Medicaid reimbursement calculation differs
       fund amentally from the Medicare payment methodology, the subject claims reviewed have no corresponding
       price when they crossover from Medicare. In addition, the State Plan adequately describes what Medicaid
       pays for crossover clai ms from Medicare.

                                                     "Lo~er of" Pric~ng fdetllodology for                              Crossover Claims

       The State Plan specifies that the Department uses a "lower of' pricing logic to compare a valid Medicaid price
       versus the Medicare coinsurance plus deducti ble amount. When a valid Medicaid price does not exist, the
       result is not a value of zero but instead is "not specified ". In these cases, the " lower of' pricing logic in the
       claims system calculates the Medicare coinsurance plus deductible amount. The c laims that were identified in
       thi s aud it were processed and paid cor(ectiy according to the payment rul es.programmed in the claims system.
       Colorado Medicaid has been c9nsistent in both' ou.r: int'erj)retati?!liind the inte~t of our "lower of' _gricing.rule; ·
       applying the same pricing· logic to all Medicare crossover' drums·.~ The following examples iliustrate this -· ·.
       consistency: ·· .
            I . 	 Freestandirig F~derally Qu:a li fle.d 'g~~ft.h Centers (FQHC)/R~ral .HeaJth Centers (RHC) prbviders: l bc
                  Department is required to pay a bundled rate for an FQHC/RHC visit. To accomplish thi s, the
        "Tho mission of the Department l'}f Health Caro ~ oli<.")' A. Flnanclr.g Is to improve hP.elth \!.!fie aa:essand outcomes for tho peoP*e we serve while demonstra ting sound stswerdshlp <~t
                                                                                              fi nancial resources."
                                                                                           colorado.cov/hcpf




Colorado Medicaid Paymentsfor M edicare Part B Deductibles and Coinsurance (A -07-13-03189)                                                                                                            15
        Patrick J. Cogley 

        Report Number: A-07-13-031 &9 

        October 23,2013 

        Page2 


                Department requires a specific revenue code (which is reimbursed a.t a provider number/revenue code
                specific rate.) Since Medicare crossover claims contain detail line level payments for revenue codes
                that differ from the Medicaid bundled rate billing requirement, no valid comparison can be made
                between Medicare and Medicaid detail line paid amounts. Therefore, the Department reimburses the
                provider the Medicare coinsurance plus deductible amount.
            2. 	 Professional Services billed by Nursing Facility providers: The Department reimburses Nursing
                 Facilities an all-inclusive per diem rate for accommodation revenue codes. Any professional service
                 performed that is not included in the per diem rate must be billed separately by the professional who
                 performed the service using a 1500/837P claim form. Since no valid comparison can be made, the
                 Department reimburses the Medicare coinsurance plus deductible amount
            3. 	 Freestanding Dialysis Center providers: The Department pays a bundled rate for Dialysis services. To
                 accomplish this, the Department requires a specific range of dialysis revenue codes, which are
                 reimbursed at a provider number/revenue code specific rate. Since Medicare Crossover claims contain
                 detail level payments for revenue codes that differ from the Medicaid billing requirement, no valid
                 comparison can be made between Medicare and Medicaid detail line paid amounts. Therefore, the
                 Department reimburses the provider the Medicare coinsurance plus deductible amount.
            4. 	 Professional Claims: For some procedure codes, the Medicaid program billing requirements differ
                 from the requirements of the Medicare program. Since no valid comparison can be made between
                 Medicare and Medicaid detail line paid amounts, the Department reimburses the Medicare coinsurance
                 plus deductible amount.

                                                     State Plan Requirements

         The Colorado State Plan describes the general rule for payment of crossover claims in Attachment 4.19-B,
         Supplement I, but does not provide a list of exceptions to this general rule in the sort of instances noted above
         where there is no Medicaid rate that corresponds to a Medicare rate. However, the Department is not required
         to identify through the State Plan eve~y nu.ancc or instanc~ in which the Medicaid Management Information
       · System (MMIS.) cannot fu lly price a Medicare crossover .claim because of the differences in reimbursement
         methodologies between Medicare and Medicaid . Rather,. the State Plan covers basic requirements and the
         individualized ~ontent that reflects the characteristics of the Department's reimbursement process according to
      ·. 42'·c.I-~.R. §430.12(a). ·No 'c hange has ciccuqed to the processio.g of Medicare cr9ssover claire:; since.the State
         Plan language was approved by the Centers for Medicare and Medicaid Services (CMS). The Department
         applies the general rule for payment of Medicare crossover claims when that rule is applicable. A technical
         addition to the State Plan to clarify circumstances where the Medicare coinsurance plus deductible amount is
         paid when the " lo wer of' pricing logic is not specified would constitute a minor te_chnical clarification and
         does not reach the threshold to justify the audit recommendations in this report.

                                      Centers for Medicare and Medicaid Services' Policy

        The recommendations contained in the draft report arc contrary to the goals of the program as described in the
        administrative guidance from CMS. See "Payment ofMedicare Cost Sharing for Qualified Medicare
        Beneficiaries (QMBs)" (CM Information Bulletin, June 7, 2013), providing that the State must document that
        it has properly processed all claims for cost-sharing liability from Medicare-certified providers even if that
        service is not covered by Medicaid. The State of Colorado has consistently paid such cost sharing according
        to th e rules program~ed in its MMIS in accordance with such guidance. Payments of Part B deductiblcs and




Colorado M edicaid Payments for Medicare Part B Deductibles and Coinsurance (A -07-13-031 89)                                   16
        Patrick J. Cogley
        Report Number: A-07-1 3-03189
        October 23, 20 13
        Page 3

        coinsurance in cases where no valid comparison may be made docs not convert such payments into
        "unallowable Medicaid payments" as the report suggests. Hence, to deem such payments as unallowable
        contradicts the policy guidance provided by CMS.

                                                      Audit Metllotlology

        The Department does not believe that proper and sufficient evidence was procured during this audit to provide
        a reasonable basis for or to justify CMS's recommendations. Specifically, the recommendations arc based
        upon the results of a hypothetical re-pricing exercise that assumed the claims were not crossover claims, but
        instead Medicaid-only claims. The Department was required to expend an inordinate amount ofemployees'
        time, (approximately 180 hours,) to re-price claims to derive dollar amounts that are either not State Plan
        benefits or are adjudicated by MM!S pursuant to a different methodology. Such an exercise illustrates the
        hypothetical nature ofthese amounts, which do not constitute meaningful evidence. Neither do these
        hypothetical amounts pro vide a reasonable basis to estimate "unallowable Medicaid payments." To calculate
        reimbursement amounts by re-pricing claims results in a purely theoretical amount in the audit report.
        Accordingly, there is no legal authority for basing a recovery on s uch speculative analysis.

                                                           Conclusion

        The Department disputes the recommendations and finds no j ustification to refund any amount related to this
        audit. The Department h as been consistent in both our interpretation and the intent of our " lower of' pricing
        rule, appl ying the same pricing logic to all Medicare crossover claims. The audit fmdings are based on a
        minor technical variation in routine claims processing, contradict the policy guidan ce provided by CMS and
        general State Plan guidelines, and is based on a hypothetical re-pricing exercise. Such findings fail to justifY a
        change to the State Plan. The Dt:partmcnt cannot concur with the audit recommendations in this report.




           Susan E. Birch, MBA, BSN, RN
           Executive Director



           Cc: Mr. Richard Allen
               Associate Regional Administrator for
               Medicaid and Children's Health Operations
               Centers for Medicare & Medicaid Services, Region VIII




Colorado Medicaid Payments for Medicare Part B Deductibles and Coinsurance (A -07-13-03189)                                  17
